     FY 
    2010 
 

             

       Federal Maritime 
       Commission 
       Audited Financial Statements 
       A11‐02 
        
        
        




                                                            




                               Audited Financial Statements 
                           FEDERAL MARITIME COMMISSION 
                                                     FY 2010 
                     FEDERAL MARITIME COMMISSION
                         FINANCIAL STATEMENTS
          FOR THE FISCAL YEARS ENDED SEPTEMBER 30, 2010 AND 2009




TABLE OF CONTENTS


INSPECTOR GENERAL TRANSMITTAL LETTER

INDEPENDENT AUDITOR'S REPORT

FINANCIAL SECTION

  BALANCE SHEET………………………………………………………………………….………....1

  STATEMENT OF NET COST…………………………………………………………………….…..2

  STATEMENT OF CHANGES IN NET POSITION…………….………………………………….…3

  STATEMENT OF BUDGETARY RESOURCES………………………………………………….…4

  STATEMENT OF CUSTODIAL ACTIVITY………………………………………………………...5

  NOTES TO THE FINANCIAL STATEMENTS……………………………………………………...6
                              FEDERAL MARITIME COMMISSION
                                  Office of Inspector General
                                 Washington, DC 20573-0001

                                      November 10, 2010


Office of Inspector General



The Honorable Richard A. Lidinsky, Jr.
Chairman
Federal Maritime Commission


I am pleased to provide you with the attached audit report required by the Accountability
for Tax Dollars Act of 2002 (ATDA), which presents an unqualified opinion on the
Federal Maritime Commission’s (FMC) FY 2010 financial statements. The audit results
indicate that FMC has established an internal control structure that facilitates the
preparation of reliable financial and performance information. We commend FMC for the
noteworthy accomplishment of attaining an unqualified (clean) opinion for the seventh
consecutive year.

The Office of Inspector General (OIG) engaged the independent certified public
accounting firm of Dembo Jones Healy Pennington & Marshall, P.C. (DJHPM) to
perform the audit of the FMC’s financial statements for the fiscal year ended
September 30, 2010. The contract required that the audit be done in accordance with U.S.
generally accepted government auditing standards and Office of Management and Budget
(OMB) audit guidance.

In its audit of the Federal Maritime Commission, DJHPM found:

  • the financial statements were fairly presented, in all material respects, in conformity
     with U.S. generally accepted accounting principles;

  • there were no material weaknesses in internal control over financial reporting
     (including safeguarding assets) and compliance with laws and regulations; and

  • no reportable noncompliance with laws and regulations tested.

To fulfill our responsibilities under ATDA and related legislation for ensuring the quality
of the audit work performed, we monitored DJHPM’s audit of FMC’s FY 2010 financial
statements by:

    •   reviewing DJHPM’s approach and planning of the audit;
    •   evaluating the qualifications and independence of its auditors;
      •   monitoring the progress of the audit at key points;
      •   examining its work papers related to planning the audit, assessing FMC’s internal
          control, and substantive testing;
      •   reviewing DJHPM’s audit report to ensure compliance with Government Auditing
          Standards and OMB Bulletin No. 07-04, as amended;
      •   coordinating the issuance of the audit report; and
      •   performing other procedures we deemed necessary.

Our review disclosed no instances where DJHPM did not comply, in all material respects,
with U.S. generally accepted government auditing standards. However, our review cannot
be construed as an audit in accordance with U.S. generally accepted government auditing
standards. It was not intended to enable us to express, and we do not express, any opinion
on FMC’s financial statements, conclusions about the effectiveness of internal control, or
conclusions on compliance with laws and regulations. DJHPM is solely responsible for
the attached auditor’s report dated November 10, 2010, and the conclusions expressed in
the report.

We appreciate the cooperation and courtesies extended to both DJHPM and OIG staff
during the audit.



Sincerely,




/Adam R. Trzeciak/
Inspector General



Attachment

cc:       Commissioners
          Managing Director




                                              2
Chairman Lidinsky:

We have audited the accompanying balance sheet of the Federal Maritime Commission (FMC)
as of September 30, 2010 and 2009, and the related statements of net cost, changes in net
position, budgetary resources, and custodial activity for the years then ended. In our audits of
the Federal Maritime Commission for the fiscal years September 30, 2010 and 2009, we found

•      the financial statements are presented fairly, in all material respects, in conformity with
       U.S. generally accepted accounting principles,

•      no material weaknesses or significant deficiencies in internal control over financial
       reporting (including safeguarding assets),

•      no reportable noncompliance with laws and regulations we tested.

The following sections discuss in more detail (1) these conclusions, (2) our conclusions on
Management's Discussion and Analysis (MD&A) and other accompanying information, and (3)
our audit objectives, scope, and methodology.

Opinion on Financial Statements

In our opinion, the financial statements including the accompanying notes present fairly, in all
material respects, in conformity with U.S. generally accepted accounting principles, the Federal
Maritime Commission's assets, liabilities, and net position as of September 30, 2010 and 2009;
and net costs; changes in net position; budgetary resources; and custodial activity for the years
then ended.

Consideration of Internal Control

In planning and performing our audit, we considered the Federal Maritime Commission's internal
control over financial reporting as a basis for designing our auditing procedures and to comply
with the Office of Management and Budget (OMB) audit guidance for the purpose of expressing
our opinion on the financial statements, but not for the purpose of expressing an opinion on
internal control and compliance or on management’s assertion on internal control included in
MD&A. Accordingly, we do not express an opinion on internal control over financial reporting
and compliance or on management's assertion on the effectiveness of the entity’s internal control
over financial reporting or on management’s assertion on internal control included in the
MD&A.

Our consideration of internal control over financial reporting was for the limited purpose
described in the preceding paragraph and would not necessarily identify all deficiencies in
internal control over financial reporting that might be significant deficiencies or material
weaknesses.
A control deficiency exists when the design or operation of a control does not allow management
or employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a control deficiency, or combination
of control deficiencies, that adversely affects the entity’s ability to initiate, authorize, record,
process, or report financial data reliably in accordance with generally accepted accounting
principles such that there is more than a remote likelihood that a misstatement of the entity’s
financial statements that is more than inconsequential will not be prevented or detected by the
entity’s internal control.

A material weakness is a significant deficiency, or combination of significant deficiencies, that
results in more than a remote likelihood that a material misstatement of the financial statements
will not be prevented or detected by the entity’s internal control.

Our consideration of internal control over financial reporting was for the limited purpose
described in the first paragraph of this section and would not necessarily disclose all deficiencies
in the internal control that might be material weaknesses or significant deficiencies. We did not
identify any deficiencies in internal control over financial reporting that we consider to be
material weaknesses or significant deficiencies, as defined above.

We noted other non-reportable matters involving internal control and its operation that we will
communicate in a separate management letter to FMC management.

Compliance With Laws and Regulations

Our tests of the Federal Maritime Commission's compliance with selected provisions of laws and
regulations for fiscal year 2010 disclosed no instances of noncompliance that would be
reportable under U.S. generally accepted government auditing standards or OMB audit guidance.
However, the objective of our audit was not to provide an opinion on overall compliance with
laws and regulations. Accordingly, we do not express such an opinion.

Objectives, Scope, and Methodology

The Federal Maritime Commission's management is responsible for (1) preparing the financial
statements in conformity with U.S. generally accepted accounting principles, (2) establishing,
maintaining, and assessing internal control to provide reasonable assurance that the broad control
objectives of the Federal Managers' Financial Integrity Act are met, and (3) complying with
applicable laws and regulations.

We are responsible for obtaining reasonable assurance about whether the financial statements are
presented fairly, in all material respects, in conformity with U.S. generally accepted accounting
principles. We are also responsible for (1) obtaining a sufficient understanding of internal
control over financial reporting and compliance to plan the audit, (2) testing compliance with
selected provisions of laws and regulations that have a direct and material effect on the financial
statements and laws for which OMB audit guidance requires testing.
In order to fulfill these responsibilities, we

•       examined, on a test basis, evidence supporting the amounts and disclosures in the
        financial statements;

•       assessed the accounting principles used and significant estimates made by management;

•       evaluated the overall presentation of the financial statements;

•       obtained an understanding of the FMC and its operations, including its internal control
        related to financial reporting (including safeguarding assets), and compliance with laws
        and regulations (including execution of transactions in accordance with budget authority);

•       tested relevant internal controls over financial reporting and compliance, and evaluated
        the design and operating effectiveness of internal control;

•       considered the design of the process for evaluating and reporting on internal control and
        financial management systems under the Federal Managers' Financial Integrity Act; and

•       tested compliance with selected provisions of laws and regulations.

We did not evaluate all internal controls relevant to operating objectives as broadly defined by
the Federal Managers' Financial Integrity Act, such as those controls relevant to preparing
statistical reports and ensuring efficient operations. We limited our internal control testing to
controls over financial reporting and compliance. Because of inherent limitations in internal
control, misstatements due to error or fraud, losses, or noncompliance may nevertheless occur
and not be detected. We also caution that projecting our evaluation to future periods is subject to
the risk that controls may become inadequate because of changes in conditions or that the degree
of compliance with controls may deteriorate. In addition, we caution that our internal control
testing may not be sufficient for other purposes.

We did not test compliance with all laws and regulations applicable to the Federal Maritime
Commission. We limited our tests of compliance to selected provisions of laws and regulations
that have a direct and material effect on the financial statements and those required by OMB
audit guidance that we deemed applicable to the Federal Maritime Commission's financial
statements for the fiscal year ended September 30, 2010. We caution that noncompliance may
occur and not be detected by these tests and that such testing may not be sufficient for other
purposes.
We performed our audit in accordance auditing standards generally accepted in the United
States; the standards applicable to the financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and OMB guidance.




Rockville, Maryland
November 10, 2010
FINANCIAL SECTION
                                     FEDERAL MARITIME COMMISSION
                                             BALANCE SHEET
                                     AS OF SEPTEMBER 30, 2010 AND 2009
                                                (In Dollars)

                                                                         2010             2009
Assets:
 Intragovernmental
   Fund Balance With Treasury (Note 2)                             $     4,862,018    $   4,777,674
 Total Intragovernmental                                                 4,862,018        4,777,674

 Accounts Receivable, Net (Note 3)                                             114           70,222
 Property, Equipment, and Software, Net (Note 4)                           629,719          202,500
 Other (Note 5)                                                              1,728                -
Total Assets                                                       $     5,493,579    $   5,050,396

Liabilities:
  Intragovernmental
    Accounts Payable (Note 6)                                      $       687,333    $     309,177
    Employer Contributions and Payroll Taxes Payable                       181,479          138,468
    Unfunded FECA Liability (Note 7)                                         1,741            1,968
    Custodial Liability                                                        114           69,236
  Total Intragovernmental                                                  870,667          518,849

 Accounts Payable (Note 6)                                                 273,306          231,925
 Accrued Payroll and Leave                                               1,051,210          865,970
 Employer Contributions and Payroll Taxes Payable                           22,613           17,568
 Unfunded Leave (Note 7)                                                 1,217,002        1,075,533
 Actuarial FECA Liability (Note 7)                                          11,821            5,249
Total Liabilities                                                  $     3,446,619    $   2,715,094

Net Position:
 Unexpended Appropriations                                         $     2,647,804    $   3,214,566
 Cumulative Results of Operations                                         (600,844)        (879,264)
 Total Net Position                                                $     2,046,960    $   2,335,302
Total Liabilities and Net Position                                 $     5,493,579    $   5,050,396




The accompanying notes are an integral part of these statements.

                                                         1
                                FEDERAL MARITIME COMMISSION
                                    STATEMENT OF NET COST
                     FOR THE FISCAL YEARS ENDED SEPTEMBER 30, 2010 AND 2009
                                           (In Dollars)

                                                                       2010              2009
Program Costs:
 Operational and Administrative (Note 10)
   Gross Costs                                                     $   17,931,656    $   16,541,546
   Net Program Costs                                               $   17,931,656    $   16,541,546


  Formal Proceedings (Note 10)
    Gross Costs                                                    $    7,227,972    $    6,082,905
    Less: Earned Revenue                                                 (118,744)                -
    Net Program Costs                                              $    7,109,228    $    6,082,905

  Office of Inspector General (Note 10)
   Gross Costs                                                     $     679,070     $     529,935
   Less: Earned Revenue                                                   (3,285)                -
   Net Program Costs                                               $     675,785     $     529,935

  Office of Equal Employment Opportunity (Note 10)
   Gross Costs                                                     $     206,652     $     151,287
   Net Program Costs                                               $     206,652     $     151,287

Net Cost of Operations                                             $   25,923,321    $   23,305,673




The accompanying notes are an integral part of these statements.

                                                         2
                               FEDERAL MARITIME COMMISSION
                           STATEMENT OF CHANGES IN NET POSITION
                    FOR THE FISCAL YEARS ENDED SEPTEMBER 30, 2010 AND 2009
                                          (In Dollars)

                                                                       2010               2009

Cumulative Results of Operations:
Beginning Balances                                                 $     (879,264)    $    (1,029,189)

Budgetary Financing Sources:
 Appropriations Used                                                   24,626,223         22,258,507

Other Financing Sources (Non-Exchange):
 Imputed Financing Sources (Note 11)                                     1,575,518          1,197,091
Total Financing Sources                                                 26,201,741         23,455,598
Net Cost of Operations                                                 (25,923,321)       (23,305,673)
Net Change                                                                 278,420            149,925
Cumulative Results of Operations                                   $      (600,844)   $      (879,264)

Unexpended Appropriations:
Beginning Balances                                                 $    3,214,566     $    2,706,788

Budgetary Financing Sources:
 Appropriations Received                                                24,135,000         22,800,000
 Other Adjustments                                                         (75,539)           (33,715)
 Appropriations Used                                                   (24,626,223)       (22,258,507)
Total Budgetary Financing Sources                                         (566,762)           507,778
Total Unexpended Appropriations                                    $     2,647,804    $     3,214,566
Net Position                                                       $     2,046,960    $     2,335,302




The accompanying notes are an integral part of these statements.

                                                         3
                               FEDERAL MARITIME COMMISSION
                            STATEMENT OF BUDGETARY RESOURCES
                    FOR THE FISCAL YEARS ENDED SEPTEMBER 30, 2010 AND 2009
                                          (In Dollars)

                                                                       2010               2009
Budgetary Resources:
Unobligated Balance Brought Forward, October 1                     $      867,458     $      747,665
Recoveries of Prior Year Unpaid Obligations                               582,606            171,489
Budget Authority
  Appropriation                                                        24,135,000         22,800,000
  Spending Authority From Offsetting Collections
    Earned
      Collected                                                           122,029                  -
  Subtotal                                                             24,257,029         22,800,000
Permanently Not Available                                                 (75,539)           (33,715)
Total Budgetary Resources                                          $   25,631,554     $   23,685,439

Status of Budgetary Resources:
Obligations Incurred (Note 13)
  Direct                                                           $   24,205,598     $   22,817,981
  Reimbursable                                                            122,029                  -
  Subtotal                                                             24,327,627         22,817,981
Unobligated Balance
  Apportioned                                                              10,273             66,284
Unobligated Balance Not Available                                       1,293,654            801,174
Total Status of Budgetary Resources                                $   25,631,554     $   23,685,439

Change in Obligated Balance:
Obligated Balance, Net
 Unpaid Obligations, Brought Forward, October 1                    $     3,910,216    $     3,314,469
Obligations Incurred Net                                                24,327,627         22,817,981
Gross Outlays                                                          (24,097,146)       (22,050,745)
Recoveries of Prior Year Unpaid
 Obligations, Actual                                                     (582,606)          (171,489)
Total, Unpaid Obligated Balance, Net, End of Period                $    3,558,091     $    3,910,216

Net Outlays:
 Gross Outlays                                                     $   24,097,146     $   22,050,745
 Offsetting Collections                                                  (122,029)                 -
Net Outlays                                                        $   23,975,117     $   22,050,745




The accompanying notes are an integral part of these statements.

                                                         4
                                FEDERAL MARITIME COMMISSION
                              STATEMENT OF CUSTODIAL ACTIVITY
                    FOR THE FISCAL YEARS ENDED SEPTEMBER 30, 2010 AND 2009
                                          (In Dollars)

                                                                       2010             2009
Revenue Activity:
  Sources of Cash Collections:
    Miscellaneous                                                  $   1,250,668    $   1,115,241
  Total Cash Collections (Note 15)                                     1,250,668        1,115,241
  Accrual Adjustments                                                    (69,122)           5,643
  Total Custodial Revenue                                              1,181,546        1,120,884


Disposition of Collections:
 Transferred to Others                                                 1,250,668        1,115,241
 Increase/(Decrease) in Amounts Yet to be Transferred                    (69,122)           5,643
 Total Disposition of Collections                                      1,181,546        1,120,884
Net Custodial Activity                                             $           -    $           -




The accompanying notes are an integral part of these statements.

                                                         5
                  FEDERAL MARITIME COMMISSION
                NOTES TO THE FINANCIAL STATEMENTS
NOTE 1. SUMMARY OF SIGNIFICANT                        or controlled by foreign governments;
ACCOUNTING POLICIES                                   processes and reviews agreements, service
                                                      contracts, and service arrangements
A. Reporting Entity                                   pursuant to the 1984 Act for compliance
                                                      with statutory requirements; and reviews
The Federal Maritime Commission (FMC) was
established as an independent regulatory
                                                      common carriers’ privately published tariff
agency on August 12, 1961.           FMC is           systems for accessibility and accuracy, as
responsible for the regulation of ocean borne         required by OSRA. The Commission also
transportation in the foreign commerce of the         issues licenses to qualified ocean
United States (U.S.). The principal statutes or       transportation intermediaries (OTIs) in the
statutory provisions administered by the              U.S., ensures that all OTIs are bonded or
Commission are the Shipping Act of 1984, the          maintain other evidence of financial
Foreign Practices Act of 1988, and section 19         responsibility, and ensures that passenger
of the Merchant Marine Act of 1920, and               vessel operators (PVOs) demonstrate
sections 2 and 3 of Public Law No. 89-777.            adequate financial responsibility in case of
Most of these statutes were modified by the
                                                      nonperformance of voyages or injury to
passage of the Ocean Shipping Reform Act of
1998, which took effect in 1999.
                                                      passengers.

                                                      FMC is composed of five Commissioners
The Commission: monitors the activities               appointed for five-year terms by the President
of ocean common carriers, marine terminal             with the advice and consent of the Senate. The
operators (MTOs), conferences, ports and              President designates one of the Commissioners
ocean transportation intermediaries (non-             to serve as Chairman, who is also the chief
vessel-operating common carriers and                  executive and administrative officer of FMC.
ocean freight forwarders) who operate in
the U.S. foreign commerce to ensure they              The FMC reporting entity is comprised of
maintain just and reasonable practices;               General Funds and General Miscellaneous
maintains trade monitoring, enforcement               Receipts.
and dispute resolution programs designed
to assist regulated entities in achieving             General Funds are accounts used to record
                                                      financial    transactions     arising     under
compliance and to detect and appropriately            congressional     appropriations    or    other
remedy malpractices and violations of the             authorizations to spend general revenues.
prohibited acts set forth in section 10 of the
1984 Act; monitors the laws and practices             General Fund miscellaneous receipts are
of foreign governments which could have a             accounts established for receipts of non-
discriminatory or otherwise adverse impact            recurring activity, such as fines, penalties, fees
on shipping conditions in U.S. trades, and            and other miscellaneous receipts for services
imposes remedial action, as appropriate,              and benefits.
pursuant to section 19 of the 1920 Act or
FSPA; enforces special regulatory
requirements applicable to carriers owned

                                                  6
FMC makes custodial collections and holds              D. Basis of Accounting
custodial receivables that are non-entity assets
and are transferred to Treasury at fiscal year         Transactions are recorded on both an accrual
end.                                                   accounting basis and a budgetary basis. Under
                                                       the accrual method, revenues are recognized
B. Basis of Presentation                               when earned, and expenses are recognized
                                                       when a liability is incurred, without regard to
The financial statements have been prepared to         receipt or payment of cash.          Budgetary
report the financial position, net cost of             accounting facilitates compliance with legal
operations, changes in net position, and the           requirements on the use of federal funds.
status and availability of budgetary resources         Balances on these statements may therefore
of the FMC. The statements are a requirement           differ from those on financial reports prepared
of the Accountability of Tax Dollars Act of            pursuant to other OMB directives that are
2002. They have been prepared from, and are            primarily used to monitor and control FMC's
fully supported by, the books and records of           use of budgetary resources.
FMC in accordance with the hierarchy of
accounting principles generally accepted in the
United States of America, standards approved           E. Revenues & Other Financing Sources
by the Federal Accounting Standards Advisory
Board (FASAB), OMB Circular A-136,                     Congress enacts annual appropriations to be
Financial Reporting Requirements and FMC               used, within statutory limits, for operating and
accounting policies which are summarized in            capital expenditures. Additional revenues are
this note. These statements, with the exception        obtained from service fees and reimbursements
of the Statement of Budgetary Resources, are           from other government entities and the public,
different from financial management reports,           but these revenues are not available to the
which are also prepared pursuant to OMB                agency to fund operating expenses.
directives that are used to monitor and control
FMC’s use of budgetary resources.                      Appropriations are recognized as a financing
                                                       source when expended.         Revenues from
The statements consist of the Balance Sheet,           service fees associated with reimbursable
Statement of Net Cost, Statement of Changes            agreements are recognized concurrently with
in Net Position, Statement of Budgetary                the recognition of accrued expenditures for
Resources, and the Statement of Custodial              performing the services.         Appropriations
Activity. In accordance with OMB Circular              expended for capitalized property and
A-136, the financial statements and associated         equipment are recognized as expenses when an
notes are presented on a comparative basis.            asset is consumed in operations.
Unless specified otherwise, all amounts are
presented in dollars.                                  FMC recognizes as an imputed financing
                                                       source the amount of accrued pension and
C. Budgets and Budgetary Accounting                    post-retirement benefit expenses for current
                                                       employees paid on its behalf by the Office of
Congress usually enacts appropriations to              Personnel Management (OPM).
permit FMC to incur obligations for specified
purposes. In fiscal years 2010 and 2009, the           F. Taxes
FMC was accountable for General Fund
appropriations.     The agency recognizes              FMC, as a Federal entity, is not subject to
budgetary resources as assets when cash (funds         federal, state, or local income taxes, and,
held by the U.S. Treasury) is made available           accordingly, no provision for income taxes has
through the Department of Treasury General             been recorded in the accompanying financial
Fund warrants.                                         statements.


                                                   7
G. Fund Balance with Treasury
                                                         Description            Useful Life (years)
The U.S. Treasury processes cash receipts and
                                                         Leasehold Improvements          5
disbursements. Funds held at the Treasury are
available to pay agency liabilities. FMC does            Office Furniture                5
not maintain cash in commercial bank                     Computer Equipment              5
accounts or foreign currency balances.                   Office Equipment                5
                                                         IT Software                     5
H. Accounts Receivable
                                                         J. Advances and Prepaid Charges
Accounts receivable consists of amounts owed
to FMC by other Federal agencies, its
                                                         Advance payments are generally prohibited by
employees and the general public. Accounts
                                                         law. There are exceptions, such as some
receivable in the Salaries and Expense Fund
                                                         reimbursable agreements, subscriptions, and
represent employee-related receivables. An
                                                         payments to contractors and employees.
allowance      for    uncollectible     accounts
                                                         Payments made in advance of the receipt of
receivable from the public is established when,
                                                         goods and services are recorded as advances or
based upon a review of outstanding accounts,
                                                         prepaid charges at the time of prepayment and
management determines that collection is
                                                         recognized as expenses when the related goods
unlikely to occur considering the debtor’s
                                                         and services are received.
ability to pay. Debts six months or more past
due are referred to the Department of Treasury
for follow-up collection efforts in keeping with         K. Liabilities
the Debt Collection Improvement Act of 1996
                                                         Liabilities represent the amount of monies or
(DCIA).       Treasury’s Debt Management
                                                         other resources likely to be paid by the FMC as
Services (DMS) administers the program and
                                                         a result of transactions or events that have
deducts 18 percent from amounts ultimately
                                                         already occurred. No liability can be paid,
collected for its fee. Collections, net of fees,
                                                         however, absent an appropriation or other
are returned to the FMC for remittance to the
                                                         funding. Liabilities covered by budgetary or
general fund of the Treasury.
                                                         other resources are those liabilities for which
                                                         Congress has appropriated funds or funding is
I. Property, Equipment, and Software
                                                         otherwise available to pay amounts due.
                                                         Liabilities for which an appropriation has not
Property, equipment and software represent
                                                         been enacted or other funds received are,
furniture, fixtures, equipment, and information
                                                         therefore, classified as not covered by
technology (IT) hardware and software which
                                                         budgetary resources.       The liquidation of
are recorded at original acquisition cost and are
                                                         liabilities not covered by budgetary or other
depreciated or amortized using the straight-line
                                                         resources is dependent on future congressional
method over their estimated useful lives.
                                                         appropriations or other funding. There is no
Major alterations and renovations are
                                                         certainty that the appropriation will be enacted.
capitalized, except wherein the tenant
                                                         Intragovernmental liabilities are claims against
improvement allowance specified in lease
                                                         FMC by other federal agencies. Additionally,
agreements covers the costs of certain
                                                         the government, acting in its sovereign
renovations. Maintenance and repair costs are
                                                         capacity, can abrogate liabilities.
expensed as incurred. FMC's capitalization
threshold is $25,000 for individual purchases.
                                                         L. Accounts Payable
Applicable standard governmental guidelines
regulate the disposal and convertibility of
                                                         Accounts payable consists primarily of
agency property, equipment and software. The
                                                         amounts owed to other Federal agencies and
useful life classifications for capitalized assets
                                                         the public for contracts for goods or services,
are as follows:

                                                     8
such as leases, utilities, telecommunications            payments calculated by the DOL, and (2) the
and consulting and support services.                     unreimbursed cost paid by DOL for
                                                         compensation to recipients under the FECA.
M. Annual, Sick, and Other Leave
                                                         O. Retirement Plans
Annual leave is accrued as it is earned, and the
accrual is reduced as leave is taken. The                FMC employees participate in either the CSRS
balance in the accrued leave account is                  or the FERS. The employees who participate
adjusted to reflect current pay rates. Liabilities       in CSRS are beneficiaries of FMC's
associated with other types of vested leave,             contribution, equal to seven percent of pay,
including compensatory, restored leave, and              distributed to their annuity account in the Civil
sick leave in certain circumstances, are accrued         Service Retirement and Disability Fund.
at year-end, based on latest pay rates and
unused hours of leave. Funding will be                   Prior to December 31, 1983, all employees
obtained from future financing sources to the            were covered under the CSRS program. From
extent that current or prior year appropriations         January 1, 1984 through December 31, 1986,
are not available to fund annual and other               employees had the option of remaining under
types of vested leave earned but not taken.              CSRS or joining FERS and Social Security.
Nonvested leave is expensed when used. Any               Employees hired as of January 1, 1987 are
liability for unused sick leave that is accrued          automatically covered by the FERS program.
but not taken by a Civil Service Retirement              All employees are eligible to contribute to the
System       (CSRS)-covered      employee       is       Thrift Savings Plan (TSP).          For those
transferred to the OPM upon the retirement of            employees participating in the FERS, a TSP
that individual. Credit is given for sick leave          account is automatically established and FMC
balances in the computation of annuities upon            makes a mandatory one percent contribution to
the retirement of Federal Employees                      this account.      In addition, FMC makes
Retirement System (FERS)-covered employees               matching contributions, ranging from one to
effective at 50% beginning FY2010 and 100%               four percent, for FERS eligible employees who
in 2014.                                                 contribute to their TSP accounts. Matching
                                                         contributions are not made to the TSP accounts
N. Accrued and Actuarial Workers’                        established by CSRS employees. For FERS
Compensation                                             participants, FMC also remits the employer's
                                                         share of the required contribution.
The Federal Employees' Compensation Act
(FECA) administered by the U.S. Department               FERS employees and certain CSRS
of Labor (DOL) addresses all claims brought              reinstatement employees are eligible to
by FMC employees for on-the-job injuries.                participate in the Social Security program after
The DOL bills each agency annually as its                retirement.
claims are paid, and the actual costs incurred
are reflected as a liability to the agency.              FMC recognizes the imputed cost of pension
Payment of these bills is deferred for two years         and other retirement benefits during the
to allow for funding through the budget                  employees’ active years of service. OPM
process. Similarly, employees that the FMC               actuaries determine pension cost factors by
terminates without cause may receive                     calculating the value of pension benefits
unemployment compensation benefits under                 expected to be paid in the future and
the unemployment insurance program also                  communicate these factors to FMC for current
administered by the DOL, which bills each                period expense reporting. OPM also provides
agency quarterly for paid claims. Future                 information regarding the full cost of health
appropriations will be used for the                      and life insurance benefits. FMC recognized
reimbursement to DOL. The liability consists             the offsetting revenue as imputed financing
of (1) the net present value of estimated future

                                                     9
sources to the extent these expenses will be               appropriations or other authority remaining
paid by OPM.                                               after deducting the cumulative obligations
                                                           from the amount available for obligation. The
FMC does not report on its financial                       cumulative results of operations is the net
statements information pertaining to the                   result of FMC’s operations since inception.
retirement plans covering its employees.
Reporting amounts such as plan assets,                     S. Imputed Costs/Financing Sources
accumulated plan benefits, and related
unfunded liabilities, if any, is the responsibility        Federal Government entities often receive
of the OPM.                                                goods and services from other Federal
                                                           Government entities without reimbursing the
P. Other Post-Employment Benefits                          providing entity for all the related costs. In
                                                           addition, Federal Government entities also
FMC employees eligible to participate in the               incur costs that are paid in total or in part by
Federal Employees Health Benefits Plan                     other entities. An imputed financing source is
(FEHBP) and the Federal Employees Group                    recognized by the receiving entity for costs
Life Insurance Program (FEGLIP) may                        that are paid by other entities.           FMC
continue to participate in these programs after            recognized imputed costs and financing
their retirement. The OPM has provided FMC                 sources in fiscal years 2010 and 2009 to the
with certain cost factors that estimate the true           extent directed by OMB.
cost of providing the post-retirement benefit to
current employees. FMC recognizes a current                T. Contingencies
cost for these and Other Retirement Benefits
(ORB) at the time the employee's services are              Liabilities are deemed contingent when the
rendered. The ORB expense is financed by                   existence or amount of the liability cannot be
OPM, and offset by FMC through the                         determined with certainty pending the outcome
recognition of an imputed financing source.                of future events. FMC recognizes contingent
                                                           liabilities, in the accompanying balance sheet
Q. Use of Estimates                                        and statement of net cost, when it is both
                                                           probable and can be reasonably estimated.
The preparation of the accompanying financial              FMC discloses contingent liabilities in the
statements in accordance with generally                    notes to the financial statements when the
accepted accounting principles requires                    conditions for liability recognition are not met
management to make certain estimates and                   or when a loss from the outcome of future
assumptions that affect the reported amounts               events is more than remote. In some cases,
of assets and liabilities and disclosure of                once losses are certain, payments may be made
contingent assets and liabilities at the date of           from the Judgment Fund maintained by the
the financial statements and the reported                  U.S. Treasury rather than from the amounts
amounts of revenues and expenses during the                appropriated to FMC for agency operations.
reporting period. Actual results could differ              Payments from the Judgment Fund are
from those estimates.                                      recorded as an “Other Financing Source” when
                                                           made.
R. Net Position
                                                           U. Expired Accounts and Cancelled
Net position is the residual difference between            Authority
assets and liabilities and is comprised of
unexpended appropriations and cumulative                   Unless otherwise specified by law, annual
results   of     operations.        Unexpended             authority expires for incurring new obligations
appropriations represent the amount of                     at the beginning of the subsequent fiscal year.
unobligated and unexpended budget authority.               The account in which the annual authority is
Unobligated balances are the amount of                     placed is called the expired account. For five

                                                      10
fiscal years, the expired account is available        At the end of the fifth expired year, the expired
for expenditure to liquidate valid obligations        account is cancelled.
incurred during the unexpired period.
Adjustments are allowed to increase or
decrease valid obligations incurred during the
unexpired period but not previously reported.


NOTE 2. FUND BALANCE WITH TREASURY

Fund balance with Treasury account balances as of September 30, 2010 and 2009 were as
follows:

                                                                2010                      2009
Fund Balances:
Appropriated Funds                                         $      4,862,018          $      4,777,674
Total                                                      $      4,862,018          $      4,777,674

Status of Fund Balance with Treasury:
Unobligated Balance
   Available                                                $        10,273           $        66,284
   Unavailable                                                    1,293,654                   801,174
Obligated Balance Not Yet Disbursed                               3,558,091                 3,910,216
Total                                                      $      4,862,018          $      4,777,674

The available unobligated fund balances represent the current-period amount available for
obligation or commitment. At the start of the next fiscal year, this amount will become part of the
unavailable balance as described in the following paragraph.

The unavailable unobligated fund balances represent the amount of appropriations for which the
period of availability for obligation has expired. These balances are available for upward
adjustments of obligations incurred only during the period for which the appropriation was
available for obligation or for paying claims attributable to the appropriations.

The obligated balance not yet disbursed includes accounts payable, accrued expenses, and
undelivered orders that have reduced unexpended appropriations but have not yet decreased the
cash balance on hand.




                                                 11
NOTE 3. ACCOUNTS RECEIVABLE

Accounts receivable balances as of September 30, 2010 and 2009 were as follows:

                                                            2010                    2009
 With the Public
Accounts Receivable                                    $             114       $      70,222
Total Accounts Receivable                              $             114       $      70,222

FMC has one receivable from a non-federal source remaining at fiscal year end that
represents an amount due for administrative research.


NOTE 4. PROPERTY, EQUIPMENT, AND SOFTWARE

Schedule of Property, Equipment, and Software as of September 30, 2010

                                                        Accumulate d
                                 Acquisition           Amortization/             Ne t Book
Major Class                         Cost                Depreciation              Value
Leasehold Improvements          $     225,000          $      67,500           $      157,500
Furniture & Equipment                 520,566                228,926                  291,640
Software-in-Development               180,579                    N/A                  180,579
Total                           $     926,145          $     296,426           $      629,719

Schedule of Property, Equipment, and Software as of September 30, 2009

                                                        Accumulate d
                                 Acquisition           Amortization/             Ne t Book
Major Class                         Cost                Depreciation              Value
Leasehold Improvements          $     225,000          $      22,500           $      202,500
Furniture & Equipment                 291,938                291,938                        -
Total                           $     516,938          $     314,438           $      202,500


NOTE 5. OTHER ASSETS

Other assets account balances as of September 30, 2010 and 2009, were as follows:

                                                            2010                    2009
With the Public
 Advances and Prepayments                              $            1,728      $            -
Total Public Assets                                    $            1,728      $            -

FMC has two travel-related advances remaining at fiscal year end.


                                              12
NOTE 6. ACCOUNTS PAYABLE

Liabilities include both intragovernmental accounts payable and other accounts payable.
Intragovernmental liabilities are owed to other federal entities for rent, printing costs, and
services of other agencies. In FY10, intragovernmental accounts payable also includes liabilities
incurred for leasehold improvements made to FMC offices, a video conferencing system, and a
telephone system. For the fiscal years ending September 30, 2010 and 2009, intragovernmental
accounts payable totals $687,333 and $309,177, respectively. Other accounts payable are owed
to non-federal sources or to the general public, and includes liabilities for general supplies,
training, studies, analysis, and/or evaluations, miscellaneous services, and operation and
maintenance of equipment. For the fiscal years ending September 30, 2010 and 2009, the non-
federal accounts payable totals $273,306 and $231,925, respectively.


NOTE 7. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES

The liabilities for FMC as of September 30, 2010 and 2009, include liabilities not covered by
budgetary resources. Congressional action is needed before budgetary resources can be provided.
Although future appropriations to fund these liabilities are likely and anticipated, it is not certain
that appropriations will be enacted to fund these liabilities.

                                                                   2010                  2009
Intragovernmental – FECA                             $                  1,741        $        1,968
Unfunded Leave                                                      1,217,002             1,075,533
Actuarial FECA                                                         11,821                 5,249
Total Liabilities Not Covered by Budgetary Resources $              1,230,564       $     1,082,750
Total Liabilities Covered by Budgetary Resources                    2,216,055             1,632,344
Total Liabilities                                    $              3,446,619        $    2,715,094

FECA liability represents the unfunded liability for actual workers compensation claims paid on
FMC's behalf and payable to DOL. FMC also records an actuarial liability for future workers
compensation claims based on the liability to benefits paid (LBP) ratio provided by DOL and
multiplied by the average of benefits paid over three years.

Unfunded leave represents a liability for earned leave and is reduced when leave is taken. The
balance in the accrued annual leave account is reviewed quarterly and adjusted as needed to
accurately reflect the liability at current pay rates and leave balances. Accrued annual leave is
paid from future funding sources and, accordingly, is reflected as a liability not covered by
budgetary resources. Sick and other leave is expensed as taken.




                                                 13
NOTE 8. OPERATING LEASES

FMC occupies office space in seven locations, of which only six of the lease agreements are
required to be accounted for as operating leases. Lease payments are increased annually based on
the adjustments for operating cost and real estate tax escalations. The lease locations and terms
are listed below:

Location                                        Term                     Lease Expiration Date
San Pedro, CA                                  5 years                                9/30/2011
Washington DC                                  10 years                              10/31/2012
Jamaica, NY                                    5 years                                 7/1/2013
Houston, TX                                    10 years                               9/14/2018
Tacoma, WA                                     10 years                               6/30/2019
Hollywood, FL                                  10 years                               5/31/2020



The lease amounts vary from year to year depending on the specific lease. The schedule of future
payments for the term of the leases is as follows:

Fiscal Year                                                                        Totals
2011                                                                       $            2,943,374
2012                                                                                    2,959,243
2013                                                                                        336,514
2014                                                                                         60,130
2015                                                                                         61,099
Thereafter                                                                                  261,136
Total Future Payments                                                      $            6,621,496


The operating lease amount does not include estimated payments for leases with annual renewal
options. Real estate taxes included in the Washington DC lease may escalate depending on the
market during the year they are due.


NOTE 9. CONTINGENCIES

There are legal actions pending against FMC in which claims have been asserted that may be
based on action taken by FMC. Management intends to vigorously contest all such claims.
Management believes, based on information provided by legal counsel, that losses, if any, for
these cases would not have a material impact on the Financial Statements. No loss accrual has
been made for these cases outstanding at September 30, 2010.




                                               14
NOTE 10. INTRAGOVERNMENTAL COSTS AND EXCHANGE REVENUE

Intragovernmental costs and exchange revenue represent goods and services exchange
transactions made between two reporting entities within the Federal government, and are in
contrast to those with non-federal entities (the public). Intragovernmental costs include payments
to federal vendors for personnel benefits, rent, utilities, and other services. Payments made to
non-federal entities (the public) are comprised primarily of employee salaries and other services.
Such costs are summarized as follows:

                                                             2010                     2009
Operational and Administrative
 Intragovernmental Costs                                 $    6,782,806           $    6,379,667
 Public Costs                                                11,148,850               10,161,879
  Net Program Costs                                          17,931,656               16,541,546

Formal Proceedings
  Intragovernmental Costs                                     2,145,204                1,961,167
  Public Costs                                                5,082,768                4,121,738
   Total Program Costs                                        7,227,972                6,082,905
      Intragovernmental Earned Revenue                         (118,744)                       -
   Net Program Costs                                          7,109,228                6,082,905

Office of Inspector General
 Intragovernmental Costs                                        185,426                  150,600
 Public Costs                                                   493,644                  379,335
   Total Program Costs                                          679,070                  529,935
      Intragovernmental Earned Revenue                           (3,285)                       -
   Net Program Costs                                            675,785                  529,935

Office of Equal Employment Opportunity
 Intragovernmental Costs                                         55,943                   43,579
 Public Costs                                                   150,709                  107,708
   Net Program Costs                                            206,652                  151,287

Total Intragovernmental costs                                 9,169,379                8,535,013
Total Public costs                                           16,875,971               14,770,660
   Total Costs                                               26,045,350               23,305,673
     Total Intragovernmental Earned Revenue                    (122,029)                       -
Total Net Cost                                           $   25,923,321          $    23,305,673




                                               15
NOTE 11. IMPUTED FINANCING SOURCES

FMC recognizes as imputed financing the costs of future benefits which include health benefits,
life insurance, pension and post-retirement benefit expenses for current employees. The assets
and liabilities associated with such benefits are the responsibility of the administering agency,
OPM. For the fiscal years ended September 30, 2010 and 2009, respectively, imputed financing
was as follows.

                                                               2010                    2009
Office of Personnel Management                          $       1,575,518       $       1,197,091
Total Imputed Financing Sources                         $       1,575,518       $       1,197,091


NOTE 12. BUDGETARY RESOURCE COMPARISONS TO THE BUDGET OF THE
UNITED STATES GOVERNMENT

The President’s Budget that will include FY10 actual budgetary execution information has not yet
been published. The President’s Budget is scheduled for publication in February 2011 and can be
found at the OMB Web site: http://www.whitehouse.gov/omb/. The 2011 Budget of the United
States Government, with the "Actual" column completed for 2009, has been reconciled to the
Statement of Budgetary Resources and there were no material differences.


NOTE 13. APPORTIONMENT CATEGORIES OF OBLIGATIONS INCURRED

Obligations incurred and reported in the Statement of Budgetary Resources as of September 30,
2010 and 2009 consisted of the following:

                                                                2010                   2009
Direct Obligations, Category A                             $    24,205,598         $   22,817,981
Reimbursable Obligations, Category A                               122,029                      -
Total Obligations Incurred                                 $    24,327,627         $   22,817,981

Category A apportionments distribute budgetary resources by fiscal quarters.


NOTE 14. UNDELIVERED ORDERS AT THE END OF THE PERIOD

Statement of Federal Financial Accounting Standards No. 7, Accounting for Revenue and Other
Financing Sources and Concepts for Reconciling Budgetary and Financial Accounting, states that
the amount of budgetary resources obligated for undelivered orders at the end of the period
should be disclosed. For the fiscal years ended September 30, 2010 and 2009, respectively,
undelivered orders amounted to the following:

                                                               2010                    2009
Undelivered Orders                                     $         1,343,878     $         2,347,107
Total Undelivered Orders                               $         1,343,878     $         2,347,107



                                               16
NOTE 15. CUSTODIAL ACTIVITY

FMC is an administrative agency collecting for the General Fund. As a collecting entity, FMC
measures and reports cash collections and refunds as custodial activity on the Statement of
Custodial Activity. Cash collections result primarily from FMC regulatory activities to include
the assessment of fines and penalties and the payment of license fees by qualified ocean
transportation intermediaries in the U.S. A small portion of amounts collected is for interest on
past due fines, petitions, status changes and special permission fees.

Custodial receipts are broken out in the following general receipt funds:

Fund                                                         2010                   2009
Fines, Penalties and Forfeitures                        $      1,041,250       $        843,000
General Fund Proprietary Receipts (user fees)                    213,492                273,218
Refund of User Fees                                               (4,074)                 (977)
Total Custodial Collections                             $      1,250,668       $      1,115,241




                                                17
NOTE 16. RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET

FMC has reconciled its budgetary obligations and non-budgetary resources available to its net
cost of operations.

                                                                                 2010              2009
Resources Used to Finance Activities:
Budgetary Resources Obligated
  Obligations Incurred                                                       $   24,327,627    $   22,817,981
  Spending Authority From Offsetting Collections and Recoveries                    (704,635)         (171,489)
  Obligations Net of Offsetting Collections and Recoveries                       23,622,992        22,646,492
  Offsetting Receipts                                                                     -                 -
  Net Obligations                                                                23,622,992        22,646,492
Other Resources
  Imputed Financing From Costs Absorbed By Others                                 1,575,518         1,197,091
  Net Other Resources Used to Finance Activities                                  1,575,518         1,197,091
Total Resources Used to Finance Activities                                       25,198,510        23,843,583

Resources Used to Finance Items Not Part of the Net Cost of Operations:
  Change In Budgetary Resources Obligated For Goods,
    Services and Benefits Ordered But Not Yet Provided                            1,003,229          (387,985)
  Resources That Fund Expenses Recognized In Prior Periods                              759                 -
  Resources That Finance the Acquisition of Assets                                 (479,066)         (225,000)
  Total Resources Used to Finance Items Not Part of Net Cost of Operations          524,922          (612,985)
Total Resources Used to Finance the Net Cost of Operations                       25,723,432        23,230,598

Components of the Net Cost of Operations That Will Not Require or
Generate Resources in the Current Period:
Components Requiring or Generating Resources in Future Periods
  Increase In Annual Leave Liability                                               141,469            45,214
  Other                                                                              6,572             5,249
  Total Components of Net Cost of Operations That Will Require or
    Generate Resources In Future Periods                                           148,041            50,463
Components Not Requiring or Generating Resources
  Depreciation and Amortization                                                     51,848            24,612
  Total Components of Net Cost of Operations That Will Not Require or
    Generate Resources                                                              51,848            24,612
Total Components of Net Cost of Operations That Will Not Require or
  Generate Resources In The Current Period                                          199,889            75,075
Net Cost of Operations                                                       $   25,923,321    $   23,305,673




                                                        18
